Telephone: (913) 551-5429          http://www.hud.gov/offices/oig/            Fax: (913) 551-5877



                                               U.S. Department of Housing and Urban Development
                                               Office of Inspector General
                                               Office of Audit - Civil Fraud Division
                                               451 7th Street, SW
                                               Washington, DC 20410




                                                                     MEMORANDUM NO.
                                                                     2012-CF-1804


March 30, 2012



MEMORANDUM FOR: Dane M. Narode, Associate General Counsel for Program
                   Enforcement, CACC




FROM: Kim Randall, Director, Civil Fraud Division, GA

SUBJECT: Final Civil Action – Diverting Operating funds for Personal Use

             Debra Waterman, former Executive Director
             Superior Housing Authority, Superior, Wisconsin


                                      INTRODUCTION

Debra Waterman, the former Executive Director for the Superior Housing Authority was
previously convicted and sentenced in February 2010 for her role in embezzling and diverting
Housing Authority operating funds for her personal benefit, through the use of a Housing
Authority credit card. At that time, she was sentenced to $10,000 restitution, 90 days
incarceration, and one year probation. Following the completion of the criminal case, OIG’s
Civil Fraud Division provided additional assistance to the City Attorney of Superior, Wisconsin,
to pursue a civil action against Ms. Waterman to recover the misspent housing funds.

                              METHODOLOGY AND SCOPE

We reviewed the Housing Authority’s credit card purchases for the period July 2002 through
September 2008. We analyzed the credit card expenditures to determine whether the items
charged to the credit card by Ms. Waterman, and paid for with Housing Authority funds, were
for her personal use.
 Telephone: (913) 551-5870    http://www.hud.gov/oig/oigindex.html        Fax: (913) 551-5877



                                         BACKGROUND

The Superior Housing Authority provides low income housing. Its principal office address is
1219 North 8th Street, Superior, Wisconsin. The Housing Authority owns 464 units and manages
an additional 67 privately-owned units. It also manages a housing voucher program that
provides rent subsidies for up to 170 families. Ms. Waterman was hired by the Superior Housing
Authority on December 7, 1992. From November 2001 to December 2002, Ms. Waterman
served as the Interim Executive Director, and became Executive Director on or about January 1,
2003. She resigned in September 2008.

On July 24, 2002, the Board for the Superior Housing Authority passed a resolution authorizing
the use of a Visa credit card by Ms. Waterman for expenses related to travel, business meals, and
other appropriate business expenses incurred for only Superior Housing Authority business.

                                             RESULTS

We identified approximately $100,000 of unsupported and/or unallowable expenditures made by
Ms. Waterman. Based on Ms. Waterman’s criminal conviction, the Superior Housing Authority
filed a complaint against Ms. Waterman in an attempt to recover the misappropriated funds. The
complaint was filed on May 5, 2010, in the Douglas County Circuit Court, in the State of
Wisconsin. The complaint demanded judgment:
         against Ms. Waterman for the misappropriation and/or theft of funds by the improper
         use of the Superior Housing Authority credit card;
         for a determination of any subrogated rights that another defendant, American Family
         Mutual Insurance Company, had that arose out of its policy of insurance and any
         payment it made for losses incurred by the misappropriation of funds and/or theft by the
         defendant Ms. Waterman;
         for an order of the Court to allow the Housing Authority to hold funds in its possession
         owed to Ms. Waterman arising out of employment; and
         for attorneys fees, costs and disbursements, and for such other relief as the Court
         deemed appropriate.

On October 13, 2011, in the Douglas County Circuit Court, in the State of Wisconsin, Circuit
Court Judge, Kelly J. Thimm entered a judgment in favor of the Superior Housing Authority
(plantiff). The judgment awarded $23,294.97 in favor of the Housing Authority and $50,000 in
favor of American Family Mutual Insurance (subrogated party). The Housing Authority was
allowed to retain sufficient funds initially owed to Ms. Waterman to satisfy the $23,294.97
judgment. The insurance company paid $50,000 to the Housing Authority for Ms. Waterman’s
fraudulent actions. Therefore, the Housing Authority realized a recovery of $73,294.97.

                                    RECOMMENDATION

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement

1A.     Agree to allow HUD OIG to post the $73,294.97 recovery by the Superior Housing
        Authority to HUD’s Audit Resolution and Corrective Actions Tracking System.



                                                   2
